   U.S. ELECTION ASSISTANCE COMMISSION 

          OFFICE OF INSPECTOR GENERAL




               FINAL REPORT



USE OF APPROPRIATED FUNDS TO SETTLE A CLAIM



              EVALUATION REPORT NO. 

                 I-EV-EAC-01-10




                 SEPTEMBER 2010
                   U.S. ELECTION ASSISTANCE COMMISSION
                            Office of Inspector General



                                                                      September 28, 2010



TO:            	 onetta Davidson
               D
               Chair, U.S. Election Assistance Commission

FROM: 	        Curtis W. Crider
               Inspector General

SUBJECT: 	 Evaluation of the U.S. Election Assistance Commission’s Use of
           Appropriated Funds to Settle a Claim

On December 10, 2009, U. S. Representative Jo Ann Emerson requested that the U. S.
Election Assistance Commission (EAC) Office of Inspector General (OIG) examine and
provide information to Congress regarding the EAC’s use of appropriated funds to settle
a claim against the agency. Attached is a copy of our final report.

The payment of a settlement to a prohibited personnel practices claim which the EAC and
the Office of Special Counsel (OSC) have determined proper is incident to the general
operations of the EAC. Therefore, based on the documentation and overall evidence
available, our evaluation noted that using appropriated funds and charging the EAC’s
operating appropriations was appropriate. Additionally, we found no conclusive
evidence that the use of fiscal year 2010 funds was improper.

In its response to the draft report dated September 8, 2010, the EAC agreed with the
report and provided no additional comments.

The legislation as amended, creating the Office of Inspector General (5 U.S.C. § App. 3)
requires semiannual reporting to Congress on all inspection and evaluation reports issued,
actions taken to implement recommendations, and recommendations that have been
implemented. Therefore, a summary of this report will be included in our next
semiannual report to Congress.

If you have any questions regarding this report, please call me at (202) 566-3125.

cc: 	   Gineen Bresso, Commissioner
        Gracia Hillman, Commissioner
        Thomas Wilkey, Executive Director
U.S. ELECTION ASSISTANCE COMMISSION

OFFICE OF INSPECTOR GENERAL

                                           SEPTEMBER 2010




                                           EVALUATION REPORT

HIGHLIGHTS
                                           USE OF APPROPRIATED FUNDS TO SETTLE A CLAIM
EVALUATION REPORT NO.                      AGAINST THE U.S. ELECTION ASSISTANCE
I-EV-EAC-01-010                            COMMISSION

SUBJECT                                    RESULTS IN BRIEF

We conducted an evaluation of the U.S.     On December 10, 2009, U. S. Representative Jo Ann Emerson
Election Assistance Commission’s           requested that the U. S. Election Assistance Commission
(EAC) use of appropriated funds for the    (EAC) Office of Inspector General (OIG) examine and
purpose of settling a claim brought by a   provide information to Congress regarding the EAC’s use of
candidate for the position of general      appropriated funds to settle a claim against the agency. The
counsel.                                   claim in question was brought by a candidate for the position
                                           of general counsel and was based on allegations that the EAC
Our evaluation objectives were to          refused to hire the applicant based upon the candidate’s
determine whether:                         political affiliation. The claim was made through the Office
                                           of Special Counsel (OSC). The claim was settled
     EAC had authority to enter into      confidentially and without admission of liability by the EAC.
      such a settlement agreement;
    EAC used proper fiscal year           We examined the EAC’s records concerning the claim and
      funds; and                           interviewed EAC employees regarding the negotiation and
   	 EAC followed appropriate             settlement of the claim. The OSC declined our request for
      protocols in entering into the       information concerning the settlement of the claim.
      settlement agreement.
                                           Our evaluation found that the EAC had authority to settle
                                           claims of this type. We also found that the EAC used
                                           appropriate fiscal year funds to pay the settlement amount.
                                           Last, we found that while the EAC did not have established
                                           policies and procedures for settling claims, the EAC made use
                                           of available advice and guidance from other federal agencies
                                           to negotiate and finalize the settlement agreement.
                          TABLE OF CONTENTS 


Introduction                                    1

Objectives, Scope, and Methodology              2

Evaluation Results                              3

Appendix A – Commission Response                5
                                            INTRODUCTION 




The U.S. Election Assistance Commission (EAC) was established by the Help America
Vote Act of 2002 (HAVA) to assist states with improving the process of conducting
elections for federal office. EAC is an independent, bipartisan commission charged with
developing guidance to meet HAVA requirements, adopting voluntary voting system
guidelines, and serving as a national clearinghouse of information about election
administration. EAC also accredits testing laboratories and certifies voting systems, as
well as audits the use of HAVA funds.

The EAC employs several statutory officers, including an executive director and general
counsel. These statutory officers must be appointed by majority vote of the Commission.
In late 2008, the EAC sought to fill a vacancy in the position of general counsel.

A qualified candidate applied for the position of the EAC general counsel. Subsequently,
the candidate was offered and accepted the position. However, after the candidate
accepted the position, the EAC commissioners took a tally vote 1 and two of the
commissioners refused to approve his appointment as general counsel to the EAC.

The candidate subsequently filed a complaint with both the EAC Office of Inspector
General (OIG) and the Office of Special Counsel (OSC). The OSC investigated the
applicant’s complaint. The OSC, in a press release dated December 2, 2009, reported that
a resolution of a prohibited personnel practice complaint filed against the EAC had been
reached. The OSC reported that their investigation had uncovered evidence indicating
that the EAC illegally refused to approve the complainant’s appointment because he was
a Republican.

During the investigation, the OSC negotiated an informal agreement between the
complainant and EAC. The EAC, without admitting fault, agreed to a monetary
settlement to resolve the OSC complaint.

On December 10, 2009, U. S. Representative Jo Ann Emerson requested that the U. S.
Election Assistance Commission (EAC) Office of Inspector General (OIG) examine and
provide information to Congress on the EAC’s use of appropriated funds to settle a claim
against the agency. The claim was based on the EAC rescinding an offer after agreeing
to hire an applicant for the position of general counsel.




1
    A tally vote is a written voting procedure in lieu of a vote at a public meeting.


                                                         1

             OBJECTIVES, SCOPE, AND METHODOLOGY 


Our evaluation objectives were to determine whether:

      EAC had authority to enter into such a settlement agreement;
      EAC followed appropriate protocols in entering into the settlement agreement;
       and
      EAC used proper fiscal year funds to settle the complaint.

To achieve our objectives, we interviewed EAC commissioners, management, and staff.
We requested and examined internal documentation such as emails and internal
memorandums issued relative to the candidate for the position of general counsel. We
reviewed applicable federal requirements, regulations, and other guidance such as
relevant Comptroller General decisions and opinions. We inquired and reviewed EAC’s
policies and procedures relative to the general counsel selection process. The OSC
declined our request for information related to the settlement of this claim.

Our scope of work did not include reviewing OSC’s investigation to the allegation.
Additionally, we did not perform an evaluation to determine whether the EAC violated
any employment or anti-discrimination laws and regulations.

We conducted our evaluation in accordance with the Quality Standards for Inspections as
prescribed by the President’s Council on Integrity and Efficiency and the Executive
Council on Integrity and Efficiency. An inspection includes the evaluation, review, study
and/or analysis of programs and activities of a department or agency for the purpose of
providing information to managers for decision making; making recommendations for
improvements to programs, policies, or procedures; and identifying where administrative
action may be necessary.




                                           2

                               EVALUATION RESULTS




Based upon our evaluation of the law, documentation, and information available, we
found that the EAC had authority to enter into a monetary settlement agreement with the
former candidate for the position of EAC general counsel. Additionally, EAC used proper
fiscal year funds, and sought advice and counsel from other federal agencies in the
absence of established policy, procedures, or protocol for settling claims.

EAC’s Authority to Enter into the Settlement Agreement

Our evaluation of the law, documentation, and overall evidence available noted no
exceptions to the EAC’s authority to enter into a monetary agreement to settle a claim of
this type. The EAC, an executive branch agency, was delegated authority by the Office
of Management and Budget (OMB) to settle claims of this type by OMB’s December 17,
1996 determination - Determination with Respect to Transfer of Functions Pursuant to
Public Law 104-316. The EAC’s policies and procedures, as established in its
responsibilities document, allow the EAC’s executive director to settle claims on behalf
of EAC. This claim fell within the scope and dollar threshold of the executive director’s
authority to settle claims. The settlement agreement was signed by the EAC’s executive
director on behalf of the EAC.

Use of Fiscal Year 2010 Funds

Based upon a review of the Government Accountability Office (GAO) precedents
regarding the use of fiscal year funds to satisfy administrative settlements, we take no
exception to the EAC’s use of fiscal year 2010 funds to pay the current settlement
amount.

Payment of an administrative settlement from fiscal year funds is dependent upon two
determinations. First, what type of appropriation can be used to satisfy the claim?
Second, which fiscal year funds should be used? The statute governing the settlement or
claim may specify from which appropriation a payment may be made. If the statute is
silent, then the agency may pay the settlement from its operating appropriations. See
GAO-08-978SP Appropriations Law, Vol. III. The claim settled by the EAC was for an
alleged prohibited personnel practice. The statute governing such claims is silent as to
the type of appropriation that can be used to pay a settlement or award. This claim is not
the type of claim that is payable from the judgment fund 2 administered by the U.S.
Department of Justice. See 31 C.F.R. 256.1. Thus, the EAC could use its salaries and
expense appropriation for this purpose.




2
 The Judgment Fund is available for court judgments and Justice Department compromise settlements of
actual or imminent lawsuits against the government.


                                                  3

                            EVALUATION RESULTS


The second determination that must be made is which fiscal year funds may be used to
pay the settlement. The GAO has found that many settlement types are payable from
current fiscal year funds in the year in which the settlement is entered because the
settlement or award creates a new right that gives rise to the government’s liability. In an
opinion related to the payment of compensatory damages in settlement of a claim of
discrimination under the Civil Rights Act of 1991, the GAO found that the settlement
amount was chargeable to the current year appropriation for the year in which the claim
was determined and allowed. B-272984 (September 26, 1996). The claim was paid from
the fiscal year funds for the year in which the settlement award was made.

The claim against EAC was one alleging discrimination based upon political affiliation, a
prohibited personnel practice. The statute governing this type of claim allows for
corrective action and damages, including: “reimbursement for attorney’s fees, back pay
and related benefits, medical costs incurred, travel expenses, and any other reasonable
and foreseeable consequential damages.” The settlement agreement in question was not
finalized until December 2009. The EAC did not admit liability and had no obligation to
pay the claim until the settlement agreement was final. The signed settlement agreement
created the administrative award and thereby established the financial liability for the
EAC. Since the settlement agreement was finalized in fiscal year 2010, it was
appropriate to use fiscal year 2010 funds to pay the settlement amount.

Proper Protocols

Our evaluation noted no exceptions to the protocols used during the settlement process.
The EAC is a relatively new agency. Despite the fact that the EAC had not adopted
formal policies and procedures relative to handling settlements, we found that the EAC
obtained advice and guidance from other federal agencies in negotiating and finalizing
this settlement agreement. Our inquiry, review, and analysis of the available
documentation and processes used by the EAC found that the EAC consulted with the
General Services Administration’s legal department throughout the process to obtain
information and guidance relative to the settlement agreement. Our evaluation further
found that the settlement was mediated by and the settlement agreement, itself, was
drafted in large part by the Office of Special Counsel (OSC).

EAC’s Response

In its response to the draft report (Appendix A), the EAC agreed with the report and
provided no additional comments.




                                             4

                                                                                                        Appendix A

                        U.S. ELECTION ASSISTANCE COMMISSION
                        1201 NEW YORK AVENUE, N .W., SUITE 300
                        WASHINGTON, D.C 20005

OFFI CE O F THE CHAIR




               September 8, 2010

               Mr. Curtis Crider                                   VIA ELECTRONIC TRANSMISMISSION
               Inspector General                                   INTER-OFFICE MAIL
               U.S. Election Assistance Commission
               Washington, DC 20005

               RE:      Draft Report: Use of Appropriated Funds to Settle a Claim

               Dear Mr. Crider:

               On August 26,2010, you provided the U.S. Election Assistance Commission (EAC) with
               the Office of the Inspector General's (OIG) draft report on the use of appropriated funds
               to settle a claim. You also offered EAC the opportunity to comment on the draft report
               before 010 issues its tinal report.

               I am writing to thank you for your attention to this matter and the thorough review 010
               conducted. I am pleased that you found EAC acted within the scope of its authority,
               correctly recorded the transaction. and followed appropriate guidance. Further, I
               commend EAC staff for being available to assist OIG; and for fully cooperating with oro
               staff during your evaluation.

               If you would like to further discuss EAC's response to the draft report, please feel free to
               contact me.

               Sincerely,




               Donetta Davidson
               Chair




                                  Tel : (202) 566-3100       www.elc.gov        Fax: (202) 566-1392 

                                                     Toll free : 1 (866) 747-1471 


                                                                   5
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
